                                    News From
                          The Office of Inspector General
                      Corporation For National And Community Service




OIG Investigators Get Law Enforcement Authority


WASHINGTON (January 10, 2006) – Attorney General Alberto R. Gonzales has
approved Statutory Law Enforcement Authority to the Office of Inspector General (OIG),
a move that allows OIG Agents to carry firearms, make arrests and seek and execute
arrest and search warrants in the course of their official duties.

The OIG’s new enforcement powers are authorized under provisions of the Inspector
General Act and the Homeland Security Act. In approving the new powers, Gonzales
said “there is adequate evidence that your investigations have been significantly
hampered and jeopardized due to the lack of such authority.”

The OIG sought the authority, already held by most Federal investigators, to lessen its
reliance on local police and other officials for backup when OIG agents are in the field
probing allegations of fraud, waste and abuse of Federal funds.

The Statutory Law Enforcement Authority is an important development for OIG agents,
who often conduct their work in high-crime areas and who occasionally must deal with
potentially violent suspects.

“The granting of Statutory Law Enforcement Authority to our already well-trained and
highly experienced investigators rounds out our set of investigative tools,” said Deputy
Inspector General Robert Shadowens. “It will allow us to pursue our investigations in a
safer and more efficient manner.”

The OIG will implement its new powers with rigorous and continuous training, as well as
new programs and policies to ensure the safety of all OIG personnel.
